WSFS Bank Platinum Visa®
Credit Card Terms and Conditions

Rates, fees, and other important costs of the WSFS Bank Platinum Visa credit card are disclosed below. Additional fees
and account terms are described in the WSFS Bank Credit Card Agreement (“Agreement”) that will be enclosed with the
card if a card is issued. The terms disclosed below and in the Agreement may be changed at any time subject to
applicable law. Based on our evaluation of your credit report and other factors, if approved for a WSFS Bank Credit Card,
you will receive a credit card account ("Account") with a minimum credit line of $500. For purposes of these disclosures,
“you” and “your” mean each person who applies for an Account.
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

APR for Cash Advances
How to Avoid Paying Interest on
Purchases
Minimum Interest Charge
For Credit Card Tips from the Consumer
Financial Protection Bureau
Fees
Annual Fee
Transaction Fees
• Balance Transfer

10.49%, 13.49%, 16.49% or 19.49%, based on
your creditworthiness.
This APR will vary with the market based on the Prime Rate.
24.99%
Your due date is at least 25 days after the close of each billing cycle. We
will not charge you any interest on purchases if you pay your entire
balance by the due date each month.
If you are charged interest, the charge will be no less than $2.00.
To learn more about factors to consider when applying for or using
a credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.
None
Either $10 or 3% of the amount of each Balance Transfer, whichever is
greater.

• Cash Advance

Either $10 or 3% of the amount of each Cash Advance, whichever is
greater.

• Foreign Transaction
Penalty Fees

3% of each transaction in U.S. dollars.

• Late Payment
• Returned Payment

Up to $35.
Up to $35.

How We Will Calculate Your Balance: For Purchase and Balance Transfer balances, we use a method called “average
daily balance (excluding new purchases and new balance transfers).” For Cash Advance balances, we use a method
called “average daily balance (including new cash advances).”
Billing Rights Summary: Information on your right to dispute transactions is included with the account-opening
disclosures (card mailer) and your monthly periodic statement.
_

1

_

_

_

How the Variable APRs on your Account are Determined: Unless an introductory or promotional APR is applicable, the
APRs on your Account for Purchases and Balance Transfers will be determined each billing cycle by adding a “margin” to
the “Index”. Please see below and in your Agreement for more information.
How Daily Periodic Rates Are Used To Calculate Interest: The daily periodic rate for your Purchase and Balance
Transfer APR is 0.02874%, 0.03696%, 0.04518% or 0.05340%, and Cash Advance APR is 0.06847%.
Margins: For Purchases and Balance Transfers, margins of 7.24%, 10.24%, 13.24% or 16.24% will be added to the Index,
based on your creditworthiness.
Index: The APRs that apply to your Account for Purchases and Balance Transfers are subject to change each Billing Cycle
with changes to the Index. The Index is the Prime Rate (U.S.) as published in the Money Rates section of The Wall Street
Journal. As of 3/16/2020, the Prime Rate was 3.25%.
Payment Allocation. Payments are allocated at our discretion as permitted by applicable law. The amount of each
payment equal to the Total Minimum Payment Due is allocated first to unpaid Transaction Fees, Account Fees, and
Minimum Interest Charges, then to unpaid interest charges, then to the balance with the lowest APR and then to balances
with higher APRs. Payment amounts in excess of the Total Minimum Payment Due will be applied to balances with higher
APRs before balances with lower APRs.
Important Information About Procedures for Opening a New Account (USA Patriot Act): To help the government
fight the funding of terrorism and money laundering activities, Federal law requires all financial institutions to obtain, verify
and record information that identifies each person who opens an account. What this means to you: When you open an
account, we will ask for your name, address, date of birth, and other information that will allow us to identify you. We may
also ask to see your driver’s license or other identifying documents.
About This Credit Card Program: This credit card program is issued and administered by Wilmington Savings Fund
Society, FSB located in Wilmington, Delaware. Any Account opened in response to this application shall be governed by
the laws of the State of Delaware. Visa is a registered trademark and service mark of Visa International Service
Association, and is used pursuant to a license.
Card Eligibility: To be eligible for an Account, you must meet certain minimum income, residency, age, credit quality and
other requirements.
Balance Transfers: You may be able to transfer balances from eligible credit card accounts to your Account. Balance
Transfers are subject to a fee based on the amount of the transfer with a minimum fee as indicated in the Fees
Table above, and are subject to your available credit limit. If the total amount requested exceeds your available credit
limit, we may send full or partial payment to your creditors in the order provided to us.
We may limit the number and types of accounts from which we will allow Balance Transfers, and the times, manner, and
circumstances in which Balance Transfers may be requested. Balance Transfers may not be payable to you or made
payable to cash. Balance Transfers may be used to pay off other creditors, but cannot be used to pay down or to pay off
accounts owned by WSFS Bank or to any bank now or previously affiliated with WSFS Bank.
It may take 2 to 4 weeks to process a Balance Transfer request after your Account is opened. You must continue paying
each of your creditors until the requested Balance Transfer appears on your monthly billing statement sent to you by your
creditor as a credit. Your other account(s) will not be closed even if you transfer your entire balance(s). If you want to
close such other account(s), please contact your other creditors directly. Note that if you have a dispute with a creditor and
pay that balance by transferring it to your Account, you may lose certain dispute rights.
Introductory or Promotional APRs on Balance Transfers: If you take advantage of a 0% Introductory or
Promotional Annual Percentage Rate (APR) Balance Transfer offer and then you use your Account to make new
Purchases, you can avoid paying interest on those new Purchases if you pay the Minimum Payment Due and the
total outstanding Purchases balance (this includes any fees that may have been assessed to your Account) by the
Payment Due Date shown on your monthly billing statement. By following these instructions and paying timely,

2

you will not be assessed interest on new purchases made during that billing cycle and you will be able to maintain
the benefits of carrying balance transfer balances at the 0% introductory APR.
Transfers requested with Convenience Checks are processed as Cash Advances, not as Balance Transfers. If you
have a dispute with a creditor and pay that creditor with a Balance Transfer or Convenience Check, you may lose certain
dispute rights with that creditor.
Your Telephone Number: When you give us your mobile phone number, we have your permission to contact you at that
number about your Account. Your consent allows us to use text messaging, artificial or pre-recorded voice messages and
automatic dialing technology for informational and Account service calls, but not for telemarketing or sales calls. It may
include contact from companies working on our behalf to service your Account(s). Message and data rates may apply.
You may contact us anytime to change these preferences.
Monitoring/Recording of Telephone Calls: You consent and agree that we, any of our affiliates, and any other persons
that we authorize in accordance with applicable law, may monitor and/or record any and all telephone communications with
you without any additional notice of such monitoring or recording, unless expressly required by applicable law.
Information Sharing: WSFS Bank’s Privacy Policy is available online at www.wsfsbank.com/Privacy-Policy
Important Notice & Acknowledgement: By signing or otherwise authorizing and submitting an application, you authorize
Wilmington Savings Fund Society, FSB, its successors, assigns, employees and designated agents (together, "WSFS
Bank", “us” or “our”), to gather and obtain credit, employment and other information about you, including credit bureau
reports, that WSFS Bank may deem necessary or appropriate in order to evaluate your application for credit. If your
application is approved and credit is extended to you, you further authorize WSFS Bank to re-verify any or all of such
information from time to time, including obtaining additional credit bureau reports, for any legitimate or permissible purpose
in connection with such extension of credit, such as for the purpose of reviewing the Account, increasing or decreasing the
credit line on the Account, or for taking collection on the Account, and to furnish information concerning your Account and
our credit experience with you to consumer reporting agencies and others who may properly receive that information. If
you ask, you will be informed whether or not a consumer report was requested, and if a report was requested, you will be
informed upon request of the name and address of the consumer reporting agency that furnished the report. You agree
that all credit card applications remain the property of WSFS Bank. By submitting a credit card application to WSFS Bank,
you also certify that all the information you have provided is true and complete, that no essential information has been
concealed, and that no misrepresentations have been made on the application. If approved, you agree to the terms and
conditions applicable to the Account for which you are approved. By submitting a credit card application to WSFS Bank
you agree to the Credit Card Terms and Conditions, including the important rate, fee and cost information and the
conditions of the Agreement, including the right of WSFS Bank to change terms and add new terms to the Account at any
time. By activating a card or the Account or allowing an authorized person to activate or use a card or the Account, you
personally agree to fully pay all amounts owed in connection with the Account as required by the Agreement. You also
agree that the federal and state courts sitting in New Castle County, Delaware shall have exclusive jurisdiction over any
judicial action or proceeding relating to or arising out of the Account or the Agreement, and you agree to submit to the
personal jurisdiction of such courts. You also agree to waive the right to a trial by jury. You agree that the Account will
only be used for lawful personal, family or household purposes. You further acknowledge you are at least 18 years of age
(19 years of age for residents of Alabama or Nebraska or 21 years of age if you are a resident of Mississippi or of Puerto
Rico).
Notice to California Residents: Married applicants may apply for a separate account(s).
Notice to New York Residents: Information About Applying for a Credit Card: When you sign or otherwise submit a credit
application, you are providing your consent and authorizing WSFS Bank, and its successors, assigns, employees and
designated agents to gather credit, employment and other information about you, including credit bureau reports, for
purposes of evaluating your application for credit. If your application is approved and credit is extended to you, we may
take steps to re-verify any or all of such information from time to time, including by obtaining additional credit bureau
reports, for any legitimate purpose in connection with such extension of credit, such as for the purpose of reviewing the

3

Account, increasing the credit line on the Account, or for collecting on the Account. In addition, we will furnish information
concerning your Account to consumer reporting agencies and others who may properly receive that information. If you
ask, you will be informed whether or not a consumer report was requested, and if a report was requested, you will be
informed upon request of the name and address of the consumer reporting agency that furnished the report. When you
submit a credit application to us, you are certifying that you have not concealed essential information for determining your
identity and creditworthiness, and that no misrepresentations have been made on the application. If approved, you agree
to abide by the terms and conditions applicable to the account. New York Residents may contact the New York State
Department of Financial Services by telephone or visit its website for free information on comparative credit card rates,
fees and grace periods. New York State Department of Financial Services: 1-800-342-3736 or http://www.dfs.ny.gov.
Notice to Ohio Residents. The Ohio laws against discrimination require that all creditors make credit equally available to
all creditworthy customers, and that credit reporting agencies maintain separate credit histories on each individual upon
request. The Ohio Civil Rights Commission administers compliance with this law.
Notice to Rhode Island and Vermont Residents: A consumer credit report may be ordered in connection with this
application, or subsequently for purposes of review or collection of the Account, increasing the credit line on the Account,
or other legitimate purposes associated with the Account. If you are a Vermont resident, you consent to the obtaining of
such reports by signing or otherwise submitting a credit application.
Notice to Married Wisconsin Residents: No provision of any marital property agreement, unilateral statement under
Section 766.59 of the Wisconsin Statutes or court decree under Section 766.70, adversely affects the interest of the
creditor, WSFS Bank, unless WSFS Bank, prior to the time of the credit is granted, is furnished a copy of that agreement,
statement or decree, or has actual knowledge of the adverse provision when the obligation to WSFS Bank is incurred. IF I
AM A MARRIED RESIDENT, CREDIT EXTENDED UNDER THIS ACCOUNT WILL BE INCURRED IN THE INTEREST
OF MY MARRIAGE OR FAMILY. Married applicants must provide their Social Security number and address and their
spouse's name and address to WSFS Credit Card Services, P.O. Box 976, Claymont, Delaware 19703. If the card from
which you are applying is granted, you will notify WSFS Bank if you have a spouse who needs to receive notification that
credit has been extended to you.
Notice to Delaware and Oregon Residents. Service charges not in excess of those permitted by law will be charged to
the outstanding balance from month to month. You may pay more than the minimum payment due, up to your entire
balance, at any time.
If you have any questions, you may contact WSFS Bank at 1-888-WSFSBank.
© 2020 Wilmington Savings Fund Society, FSB. All rights reserved.

4

